HHS/OIG, Audit - "Review of Inpatient Rehabilitation Facility Admissions
at Catholic Medical Center for Calendar Year 2003," (A-01-04-00530)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Inpatient Rehabilitation Facility Admissions
at Catholic Medical Center for Calendar Year 2003," (A-01-04-00530)
April 17, 2007
Complete
Text of Report is available in PDF format (1.06 mb). Copies can also be obtained by
contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review
was to determine whether Catholic
Medical Center (the Hospital)
submitted
inpatient rehabilitation
facility (IRF)
claims that met Medicare requirements.
The Hospital submitted numerous IRF claims that did not meet Medicare
requirements.  For 44 of the 100 claims in our sample, an IRF was not the
appropriate setting for the beneficiaries.  Based on the sample results, we
estimate that Medicare overpaid the Hospital approximately $1.7 million for IRF
claims during 2003.
We recommended that the Hospital refund to the Medicare program the $1.7 million
estimated overpayment for 2003; identify and refund any overpayments for
subsequent years IRF claims that did not meet Medicare requirements; and
strengthen its preadmission screening procedures to provide reasonable assurance
that beneficiaries who are admitted for IRF services require treatment at the
IRF level of care, are capable of significant practical improvement, and are
able to participate in intensive rehabilitation.  The Hospital strongly objected
to our findings and recommendations.